CERTIFICATE OF SERVICE
I, the undersigned, do swear or declare that on this 4th day of September
2020, as required by the Supreme Court, I have served the enclosed petition
on each of the parties listed below, by depositing an envelope containing
the above documents in the U.S. Mail as provided by this institution. The
envelopes are addressed to each party with sufficient first class postage
prepaid.

CLERK OF Court
United States Supreme Court
1 First Street N.E.
Washington, DC 20543-0001

Solicitor General of The
United States, Room 5614
Department of Justice
950 Pennsylvania Ave, N.W.
Washington, DC 20530"

Freeman Berry, Pro, Se VI
Reg# 48405-019
Oakdale Federal Correction
Oakdale, LA 71463

\

